f

No.

IN THE
SUPREME COURT OF THE UNITED STATES
Jessica Wrobleski, Petitioner
VS.
Administration for Children Services, et al.
Respondents).
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.
i

The appropriate boxes are checked:
/ Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):
- Appellate Division First Department
- Had court appointed counsel in New York County Family Court
' Petitioner’s affidavit or declaration in support of this motion is attached
hereto.

Jessica Wrobleski

,1

RECEIVED
mar 2 2 2021

AFFIDAVIT OR DECLARATION IN SUPPORT
OF MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
I, Jessica Wrobleski, am the petitioner in the above-entitled case. In support
of my motion to proceed in forma pauperis, I state that because of my poverty
I am unable to pay the costs of this case or to give security therefor; and I
believe I am entitled to redress.
1. For both self and spouse estimate the average amount of money
received from each of the following sources during the past 12 months.
Adjust any amount that was received weekly, biweekly, quarterly,
semiannually, or annually to show the monthly rate. Use gross
amounts, that is, amounts before any deductions for taxes or
otherwise.
Income Source Average monthly amount during Amount expected
The past 12 months
next month
You
Spouse
You
Spouse
Employment
$823
n/a
$823
n/a
Self-employment
n/a
n/a
n/a
n/a
Income from real property
(such as rental income) n/a
n/a
n/a
n/a
Interest and dividends n/a
n/a
n/a
n/a
Gifts
n/a
n/a
n/a
n/a
Alimony
$0
$0
$0
$0
Child Support
n/a
n/a
n/a
n/a
Retirement (such as social
Security, pensions,
annuities, insurance)
n/a
n/a
n/a
n/a
Disability (such as social
Security, insurance
payments)
n/a
n/a
n/a
n/a
Unemployment
Payments
$0
$0
$0
$0
Public- assistance
(such as welfare)
$0
$0
$0
$0
Other (specify) n/a:
$0
n/a
n/a
n/a .
Total monthly income

$823

n/a

$823

n/a

-i

1

2. List your employment history for the past two years, most recent first.
(Gross monthly pay is before taxes or other deductions.)
Weis Markets, 160 Robinson Street, Binghamton, N.Y. 13904
From November 2019 until December 13th 2019, gross $638
Dollar Tree, 2437 Vestal Parkway East, Vestal N.Y. 13850
From June 1st 2020 to present, gross $5765 in 2020 taxes
F.Y.E., 601-635 Harry L Dr #64, Johnson City, N.Y. 13790
From October 2020 until January 1st, 2021 seasonal, gross $522
3. List your spouse’s employment history for the past two years, most
recent employer first, (Gross monthly pay is before taxes or other
deductions.)
I was married 12-8-2019 and separated 6-15-2020,1 do not have their
personal information and have not qualified for alimony.
4. How much cash do you and your spouse have? $50 cash on hand
Below stating any money self or spouse have in bank accounts or in
any other financial institution.
Savings account, $20
Spouse account, information is unknown
5. List the assets, and their values, which you own or your spouse owns.
Do not list clothing and ordinary household furnishings.
Motor Vehicle, 2005 Hyundai Santa Fe, valued at $2000
6. State every person, business, or organization owing you or your spouse
money, and the amount owed.
James Libby $1320
7-. State the persons who rely on you or your spouse for support. For
minor children, list initials instead of names (e.g. “J.S.” instead of
“John Smith”).
Not applicable

2

8. Estimate the average monthly expenses of you and your family. Show
separately the amounts paid by your spouse. Adjust any payments that
are made weekly, biweekly, quarterly, or annually to show the monthly
rate.
You
Your Spouse
Rent or home-mortgage payment
(indude lot rented for mobile home)
$500 monthly
unknown
Are real estate taxes induded? Yes n/a
Is property insurance induded? None purchased by us tenants
Utilities (electricity, heating fuel,
Water, sewer, and telephone)
Home maintenance
Food
Clothing
Laundry
Medical/Dental
Transportation
Recreation
Insurance (car)
- Life n/a
- Health n/a
- homeowners/renters n/a
Taxes
Installment payments n/a
Alimony, maintenance, and
support paid to others
Regular expenses for operation of
Business, profession, or farm
(attach detailed statement)
Other (specify): student loan debt
Miscellaneous debts
Total monthly expenses:

$100

unknown

n/a
$75
$50
$20
n/a
$100
$20
$95

unknown
unknown
unknown
unknown
unknown
unknown
unknown
unknown

n/a

n/a

$0

n/a

n/a
$3500
$400
$895

n/a
unknown
unknown
unknown

3

9. Do you expect any major changes to your monthly income or expenses
or in your assets or liabilities during the next 12 months?
/ Yes.
I am currently seeking better employment opportunities. I have also filed
lawsuits pending in regards to extreme emotional distress suffered in 7 year
ASFA of 1997 violation and civil rights abuses, malicious prosecution and
abuse of the processes correlated to this case matter that I am submitting
this IFP form for.
10.Have you paid - or will you be paying - an attorney any money for
services in connection with this case, including the completion of this
form?
/ No.
11.Have you paid - or will you be paying - anyone other than an attorney
(such as a paralegal or a typist) any money for services in connection
with this case, including the completion of this form?
/ No.
12. Provide any other information that will help explain why you cannot
pay the costs of this case.
My job hours was cut beginning January 1st 2021 and the same day my seasonal
job ended at F.Y.E., so although some agency and persons contributed to my rent
and expenses, my job hours are still beneath part time, I make $12.50 an hour and
the state of New York has not supplied me with any of their Covid relief programs
such as I was denied for approximately 3 Covid rent relief assistance of $650 despite
being in a qualifying financial bracket. I haven’t been allowed SNAP or TANF
because I maintained full time college student status. I was approved of Pandemic
Unemployment Assistance but then was denied the amounts stated that I was
approved for and been in appeal of that decision.
My functioning has been purely off of resources I have been able to obtain through
employment, college funds, and friends from out of state. I have a small debt
acquired from this hardship and covid-related hardship that I have been facing. But
I have been strategizing to get out of debt and higher income range.
I have been separated from my spouse since June 15th 2020 with a pending divorce
on the grounds of irretrievably impaired relationship related reasons. He is also the
subject-child’s biological father that I have had relationship with since November
2012 and marriage did not make the relationship work or last.
I declare under penalty of perjury that the foregoing is true and correct.
o

Jessica Wrobleski
4

